                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

TO: AIGI      File Number: I96110056                                               Date: 28 March 2002

Subject: Closeout Memo
                                                                               I           Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have been involved with non-financial
     Conflict of Interests issues. Our investigation found that the subject violated numerous COI statutes.
     The AUSA declined the case for prosecution. Our further investigation found that an NSF
     directorate2used a cooperative agreement3to improperly hire 4 people to work directly for them.
     The misuse of the cooperative agreement would have cost NSF $234,233. The Deputy Director
     issued letters of reprimand to three directorate employees,4and letters of censure to four directorate
     employees.5

     Accordingly this case is closed.
     ,-4   .
     a%    +
      J                                          P                                      :--
                                                                                         3
                   t
                                                     ,TIOW ,m
       \
-,                                                                      FOUNDATIO
                                                          4201 WILSON BOULEVARD
      P
                                                         ARUNWON, VIRGINIA 22ZSO




                       MEMORANDUM TO:
                                                      rrlspectorOend      .
                                                                                           --
                       FROM:


                       SUBJBCX                        Office of inspector General Report Nc                Hi&!
                                                      Pradices in the Directorate for ~~t                in
                                                      C ~ ~of~Intens&c t Violadons t i h a &        Costsu

                       In your April 7,1997 InvedgationReport, you discuss questionable pmcdicd within the
                       ~inxtoratef   o  - m     )               and raise issues of conflict-of-'i violations and
                       issues ~ 0 1 1 ~ t h o a p p r o p & e n e sofattainhiringmecbanisms*used
                                                                   s                               by-and
                       theirrelatedc~ststothe~~-'* '    "                                B e a m YOU concluded that
                       certain individuals a d tbiisupemhorn eagaged in condt& that violated f e d d conftia
                       ofin~ntles,the~wasrefearedtoth,
                       it declined pmsecution. Consequently, you r e f d all of the issues raised in your
                         on
                          .           Report to b -- Director and Deputy Diredor for approp@e
                       ndmlnlstmtiveaction. A subsequent addendumto your Report addressed a third instance            -
               -       of questionablepraUioes.

                       ~ubDcqudDtto the submissionof the Inve&@on Report by the Office of Inspedor
                       Oeneral (OIO),we:reoeived additional comments h m several individd who stated that
                       they previously @d not have d c i e n t time in which tp respond to portions of the drdi
                       report Chat you had pmvided to them cariicr for comment. I have reviewedyour .Report,
                       those additionalcomrneats, and reoeived advice h m my stafFand the Office of the
                       CSenefal Counsel (OOC)on all of the issues raised in your Report. Based on that d e w , I
                       have decided to take the follotving actions in nxponse to the OICS ~ e o o r n m ~ o n s .
                       Recommendation I: Determine whether
                       Mcient for it to conduct @operations,   ll??r  a1location of lW.E pnd CPA posttiom is
                                                                     rfnot, make appropriate @ustments.
                       Implementation ofthls recommendation should include an assessment of wherher the
                       additional wsts associated with the hiring practices described in this report (totaling
                       more than $lSO,OOO d&)        are acceptable comequences of a reduction in the
                       Foundation 's FTE and P A usage.
        TIE docation of FI8 and P A positions to m u s t be sddresgsd in the context of the
        o v d constraints under whio, -       -wrates.
                                               '        FTE c o a t s msult both &om federally
                           ..
        m811WsCreamlrtungtargets and from limitations contained in appmpriationsfb
                                                                     .
        S . M e s and Expeosas Account. It is not and has never bek .-- ~tentionto simply
        balance FTB reductions with IPA increases.
        The situation is complicated by commitments made byi                        on behalfof
              for stafEng of interagency activities
        ~cidnbation                We agree with you that
                                        n PTB a@ P A positions, but on s t d h g allooations among
        notjust t o ~ a I I o c a t i o of
        allclhbtQ-.




    -
           oqpdz&o&to       -
           Once the study is complete, I will revisit FIB and IPA atlodons and will ask all
                                   ho~theywillmeet their operadugncods, including.
           commitme4ts for hkrageny activities, witbin        revisedFIT3 and IPA 'allomtiom.
           Their repo- should include considdon of changes in how staff conduct their
           business in order to make most effective use of available FTBs and IPAs.
                       .    .
I          As you wcmFeolly note, the additional costs
I
           your Report are largely due to overhead costs at
I
           submads In general, the significant
I          n o ~ @ o e s ~ n o t ~ l e a n d , i n t h e ~ s w h h i r i- a- g ~ o e .s
           should only bc used in temporary &uaencies with the -licit con-      of the
           COO., -- s~valofsaysuohhiriagmechanismwillbebasedonan~liat
           justificatiopthatweighsthc~oostswiththcbmefitstobed

           AntbaIrrJtancesi~adintheadReportwfiasthsc~~wasussdan
           temprary ~ c   m Our assessment
                                ~      .   of those a.mmgemmis that aay
           adiontahnat~is~intintimeddb~~veapdatleast~yoody~iht
                                                                                        ~~
           agency. They will be allowed to mire as cumntly planned (one of the individuals
           has a k d y left the Foundation), and undegno chumstances will the r a m b h g
           ammgementsbe xeneW86
           The mmgemcnt described in the Repoit's addend- has not yet been fully         '


           consummatad. I have asked that the arrangement bc d l i s h e d under, .-
           regular hiring prwtiots by October 1, with the individual involved moved to an FTE or
           IPA position, or the individual's employment ferminated
-v
     Rewmenclbtion 2: Ensure that all - or@ng mangemerats arefiJ&disclosed to and
     qpproved fn writing by the appropriate adminfstr&e OBW.

     Because the practices described bthe report did not directly involve NSF employees
     (FIBS) or PAS on& the arrangements wi             were made, they appeat not to have
     been regarded as WSF s M i n g                       agree 4th you, however, that
                              ..
     imdEcient attention was paid to the.specificatrangements described in your Report, and
     that *theappropxiate t x h m h t've
                                       ~ offices should have been consulted or made more fully
     aware of the proposed stafbg amngements.

     Actions:
         The staff memorandum initiating the FTE/IPA allocation study will also make clear
         that all WSF staflhg arrangements,a LC, all axaagements fbr suppoxling NSF
         activities (imclluding NSF participation in interagency efirts), must bc canied out by
         FIBS,IPAs, or contractorpersonnel, ex*         under vay unusual .-              Any
         other mechanism nquim the ctq,nxs concumncc of the COO.
        I have asked BFA & came that t h m are no o t k instanoes of p@ces kchas those
        descriiintheReport. Ifth~are,wlewillmAkearrangementsto&~terminate
        them or, if ippmpriate, let them expire and not be m d

     Rewnmen&ion 3: EMnfne                                                             having
     co@llcts (0s icht@edby this
     wnddkrs to have been adversely c@cted by t h e i r ~ ~ i Aspml o n of the
     hpJemeratrton of this i e w ~ e t & k . t b ~NSF-shouldw&&r whethet to immediate&
     mpdaqy or (rllo f k e a w ~ d wmp~etion          r ~ of the evaluztbn
     shody after receipt of the 010nq  o rt
                                          ,m   -                               -
                                                in consultation witti 00c detemined that
     thae was no mason to imm-        suspend any of the devant awards.
     mbsequdy conducted th r e c o m m ~~              0 and concluded
                                                                  0
     been advmely affedad by the partidpkion of indivibils having conflicts (as identified
     in the RepoIt).
     Thesizeandsoopeoftheforth
           office was determined through interagency recesses prior to the props



     participation on otheql)awardr took place either before or a8a he was awan of the
     potential change of firndiag.
    Thc 010 Report also raised questions with respect to some o t h e r ~ a w a dbased     s    on    c
    the status of the individual's wife, who is employed by a s u b e o n ( r a o t o r . Agah, the
    size and scope of these a&'      were determined by an interagency
    m c t i m y h g out their direction. The individual did not handle
    dght have resulted in h d i n g for his wife through the
    adverse impact hm.theindividual's holvkment

                                              -                                    -
    The.awardst o L
    reviewed w i t h the -       's ~ i v i s i o nhandled by A                 wcrs
                              Division; rather thatl by individuals com1etely e x t e d to the-
    decision pmcess. Because those in    &rn
                                          .I I&         of command i  dsigned off on the
    original awards pmocss, I have determinedthat some additiohal review o u t s i d e m i s
    wzlmmted b.



        I ham asked that t h m a w a d s -h
        rmzviewed by appmp&e NSF staffextemd to th
                                                       which th
                                                                 &      P A participated be
                                                                  Ditworate in order to
        independently establish whether or not the funding decisions w d appmpriately
        supported by the d e w s and not adversely &+ by the IPA's participatioa-This
        exsmiaatonshould be completed no later than September 5,1997.
    RecommemWon 4: D e f d n e whether the t h & v W described in the aftachedreports
    can w&     in their currentposfrtiorp;t& correctfveaction with rep@ to their status;
    andrerack appmprlate a n c i s p e ~ i c ~guldmroc
                                               ~ e n that a d i k s e s whether thtycan
    rend~rad~fceor take rng,actioi'on rnry matter regmiing-
-   W e have d&emined that all the individualsd d b e d in your Report whose @atusis
    manedwill be m t t e d b continue in their ournot positions. Prsmaflne terminafion
    oftheir assignmeatswould cause



    appointment expiration date.
                              s                      L
    Aqtions:
                                                             0   ,




        I have requested that OW develop written guidanck t1;at addresses whether the
        &edsd individuals can render advice to,staEat.NSFor at other agencies or take any
                                              b d -guidancehas W y been pm~dedto
     I tun requesting    ffui make an cady decision on a n y . p o s s i b 1 ~ ofthe-
                                                                               d
     P A and providejustification for and obtain crtplioit con--    ofthe COO for
f    meml.
 RecommendaHon 5: Uh&vtake a thorough review ofthe ethics t r & i n g p f o ~ t ~ ~
 employees to &I&       W@ atcf~lgtratdngpmgrants w w -e                      to alert them (0
 these w@icl~.  Make certain tlunm0,ethics training &$ldetlcies c q c~ o d e d m r d t h
e r n p ~ o ~can    e demonstrate
                      s            that tirty hcr~ran w         e umiiwstaitding o f t k
 ~Micts    r ~ o n s wwch~ o they are djeot.
     I                                       ..                                 %        .. .
         d pur '&or& it appclus
 ~ a s e on                      that t h e ~ e m p 1 o y e e involved
                                                              s        in any df o~nflicts
 ~ o r e z r o r s i n j r u d g m c o t ~ ~ v e d ~ ~ e t h i ~ ~ ~ p
 rrs& I agree with your recommkdation that the unique ckamshnce~            of-
 situation Waly contniuted to a lack ofqpmpriatc attentionand sensitivitits by ths .
 individuals imrolvab@o$l*&-                     iwolvad a n d t h d r ~ to)codiots
 of htmstrules and-.                       t ' s ...-                   J
                                                                 3
                                                        t.   w

Aotim*




0-       I:(ems.,.                2   .
I b report           raised
                   a nu&ex ofissues that were not c i i m t ~ ~        in the
ttcommendations. Two merit porno ~ U c iattention:
                                         t         the rslatiomhip b e t w a t n a n d
    .                                 .
I
        the organhtion
        increased potenti
                                    L..

                                      that manages its single largest activityw,     and the
                                 or conflicts of interests in nmmghg interagency pmgmms.

        Actions:     c   ,   .


             I have asked tlpit d            s -fUy     its working relationsliip with.)=
         . particular, I want them to make sure that they have pmcedures in place to use the
         .     -    o p e agreement efficiently and effectively for the purposes intended
             when it was established.Funding arrangements for activities outside of-p~rt
             should be handled through other v @ c l ~ .

             1have also requested that OGC review the possible need to enhance the ethics training
             provided to NSF Win all Directorates that are involved in d e w proasses for (or
             detailed to) offices COO-      interageacy p r o m .
                                     I.".       .---- -- - -
                                                 4201 WILSON BOULEVARD
                                                ARLINGTON, VIRGINIA 22230

                                                                              August 28, 1997


        ORICEOFllE
      OEPV~~DIRECIOR                             MEMORANDUM.
                                     1      .     :
                                                               . ..y      .


 TO:
                       Acting Deputy D i i r .-
                                                                   a*..
 FROM:                                                           .3!'

 RE:                   Inspcaor General hvcati ation Report No. 196110056, bbHhbgPractices
                       lntheDirectoratefor9                   -

                  ->      I
                                                                               1   ..,
 TI& m e m o d r m expresses my disappointment in your failure
. conflict-of-hemst issues during the process of making awards
                        to provide NSF support for the interagency
                                                                                         . .
 1have reviewed thc findingsof the lnspcctor General's report on ~nvkstigationNo. I96110056,
 dated April 7,1997. I a b reviewed your June 6" oomplents on the Inspector General's Report.

 'Ihe G r t indicates that you fMedto identi@ and ad-           conflicts vulnerabilities. I consider
 this to constitute Inexcusable misconduct. Since the Department of Justice has declined to
                                        ..
  pursue civil ac cciminal action against you in thip amtter. the I&pe&r General has r e f e d your
  case to me for appropriate &umtmtl 've action.

  I M y recognh        you have done much good work during your tenure at NSF. While not
  excusing your ethtcat insensitivity in this case, your past good work led me to impose less severe
            than I might otherwise have done under these chmstances. I trust that such
  misconduct will not bc repeated

              - - -questions
  If you have any
  w                 -        about this memorandum, please contact the General Counsel.




  cc:      'Ooc
                     *          NATIONAL SCIENCE




                                                    August 28, 1997




 TO:

 FROM:            Acting Deputy Director

 SUBJECT:         Inspector General Investigation Report No. 1961 10056. "Hiring Practices
                  in the Directorate for


 Ibis memorandum cxpressw my significant concern and disappointment with your.actions and the
 actioni of several of your employees in the matters described by the Inspector General's report on
 certain hiring practices and on conflict of interest violations within the Dimtorace for
.-              As the senior manager in    &     y6u bear the ultimate mponsibility for the
 appropnatencss of such management prawces. and your inexcusable actions did not reflect the
 goodjudgment NSF expects from members of its senior management team.

 So that there is no misunderstanding of the bases for thismemomndum. the following describes
 your inappropriate conduct or those matters which reflect a serious lapse in judgment.
                                    "   4




 (1) Your use of a non-standard mechanism for staffine n s i b i l i t i e s disregarded the
     intent of the Chief 0pe.rating Officer's express gui ct on FTEs and IPAs. Even.as "one-
                                                                              -
     time temporary actionsn, your decision to "contract out" four positions without informing
                                                                                                      -
                                                     -
     the Chief Operating Officer of your intentions avoided the hard calls necessary to make
     timely reductions in smng levels through adjustments in(tions.               .
 (2) You failed to anticipate and consider the conflicts of interest issues that were triggered by
     the rtaffin arrangements you had suggested and approved placing both the grantee awards              .
     at risk a n d b in jsopady of serious conflicts violations.

     [n taking these actions, you failed to adequately consider the increased costs associated with
     the staffing conversions described in the 010 report and to adequatelyjustify them. Given
     the sensitivity both within and outside NSF concerning stafing levels, your decision left the
     agency open to charges that it was inappropriately increasing its staff size at some
     considerable expense of pmgram funds.

I am disturbed by the need to write this memorandum and hope that there will be no future
occurrences of this nature. especially since your service to the Foundation and to the federal
government has; until this point. been significant. I believe that this matter has already sewed
as an appropriate learning experience.
                          -
                                             NATlONAL SCIENCE FOUNDAtlON
                                                   4201 WILSON BOU&RD
                                                  ARLINGTON, VIRGINIA 22230


                                                                   August 28, 1997
                    ,.
          .     .                                MEMORANDUM



 TO:                                                  Division ~ i r r n o r . m

  FROM:                     Acting Deputy Director

  RE:                       Inspector General                       No. 196110056. "Hiring Practices
                            in the D i m r a t e fo

  This memorandumreprimands you for your Mlmto comply with applicable conflict-of-intern stand-.

  Ihave reviewed the fmdiags of the lnspmor General's repon on Invenigation No. !96110056. dated April 7.
  IOW. 1 also reviewed your June 5" comments on the Inspector General's Repon.

  The InspectorGeneral concluded
  involving his home innitution. the
  time. you w e senring as the
  was Krving in your Division
  should not haadlc NSF
  s p W rrsponsibility for taking appropriate actions a p r r v m m f f fmm handlingproposals and awards tn.
. which they have diiualifLing conflicts of in-         Iam especially disappointed that you completely failed to
  cany out chat responsibility in this case. Iconsider thk to be inexcusable miscon,duct on your pan

 Inthe fume, Iexpect chat you will maintainan appropriate rccusal system in order to avoid exposing other
 m t a f f t o conflictsf-inurest violations. Inote drat your comments indicate that you have already instituted
 such a procsdun.
  Ihe public has a right to be confident that the NSF strialy adhats to basic ethical principles. Such public
  confidence is vitally important to the Foundation. Accordingly. Ihave ordered NSF staff outside of t h e
  D b c a t e a conduct a comprehensive mimo f t              h       e decisions in uation to daerminc whether
  *Cy wee appmpriately supported by the reviews and not adversely aflecud by                           improper
  pardcipation.

  Irecognize that you have done much good work for the Foundation during your tenure here. While not
  excusing your poor judgment in the-matter.         Ihave taken this good work into account in imposing less
  scvm discipline than I might otherwise have done under these circumstances. Itrust that such misconduct will
  not be repeated.

  Ifyou have any questions about the contents o f thii memorandum. please contact the ~eneralCounsel.
               -       .-.-a.




  Be advised that a copy of this reprimand will be placed in your official personnel file. I f you engage in no
  funhcr misconduct during the next twelve months. it will be removed from the file and destroyed.




  cc:         OOC
              **lB.a
                                          NATtONACSCIENCE FOUNDATION
                                             4201 WILSON BOUEVARD
                                            ARUNOtON, VIRGINIA S230

                                                            August 28, 1997




I      FROM:
       RE:
                   .z   AdngDeputy DEteqor
                                             r
                                                                     * ?
                                                                    .# r
                                                                  I961 10056, "Hiring P d c e s    .


       This muuomndm r e p h a d pu f$r your fhilm to fully and appm~ritml~
                                                                         consult
      _NSF sdmt\ktr&c officialsin csmbfiiag amuigcments with the
                            7for NSF staffntpwn COT the-&nI

                                                                             J
    * I have         the W i of the hspecmc G e n d s report on 111v@gation No. 196110056, d a d '
      April 7.1997.1 a h reviewedyour June 9c o ~ c a on
                                                       o the Inspahr Gcnd's Repat'
                       dedchat ouirnpmpuiyurcda
      ~bo'hpcaiurChdconc~




      tnuccusable nrtsconduct,
                                                                                             .Z .
      1Mly temgakc Wyw bave done much good k d c during your tenure at NSF. While notwcqsing
      your admtalstmhand ethical shortcomings in &is case. your past good wodc led me to impose less
      same disclptincthaa I might obrwwisc have done under thesc cimunsstanccs. 1 tmst that Nth
      mhnduct MI1not be &

      If mu hak any quatbns abwt this memorandum. please contact the General Counsel
             -
      Be advised drat a copy ofthis reprimand will be placed in your official pcisonnel file. If you engage
      h no f i d c r misonductduring the next twelve months. it will be removed fiom the file and
      dm*
                                  +   L                                    -..
                                                                                      v    .
                                                                                               -
      cc:        OOC
                 HRM
                                        NATIONAL SCIENCE
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230
              ,.4'3.srlY
        -tnsf$.                                                August 28, 1997


                                            MEMORANDUM




    FROM:                  Acting Deputy Director

    RE:                    InspectorGeneral Investigation Report No. 196110056, "Hiring Practices
                                            d
                                            f-
                           in the Directorate


                                       my disappointment in your failure to recognize that your subordinate,
                                        a disqualiwng conflictsf-interest as to NSF matters involving his

                                                      .   a'
                                                                              .
                                             to take appropriate action to address that issue.         . .

    Ihave reviewed the findings of the Inspector General's report on Inv*&igation .I96110056, dated
    April 7,1997. 1also reviewed your June 6th -men&        on the InspectorGene8s &port$
                                                                                   . -. *'      ...
    The InspectorGeneral concluded that
    certain ma!ters involving his home i
,
    .          Thc Report also conclud
    completely failed to take any steps -
    infxcusabiemisoonducton
    .     r

    n;'~ublic has a right to be confident that the NSF strictly adheres to basic ethical principles. Such
                                          to the Foundation. Accordingly, I have ordered NSF staff
                                 irectorate to conduct a comprehensive review of the
                                                            supported by the

                                                                                  4f:   .   '    -.s
    Ifilly rccognb that you have done inuch good wok for the Foundationduring your tenure here.
    While not excusing your ethical insensitivity in this case your past good wok lad me to impose less
    scvetr diiipline than Imight otherwise have done under these circumstances. Itrust that such
    misconduct will not be repeated. '           -.
    -
    If you
        . .have
            - any questions about this memorandum, please contact the General Counsel,                '




    cc:         OOC
                                       NAiiONAL SCIENCE FOUNDATl
                                           4201 WISON 0oULEVARD
                                          ARLINGTON, VIRGINIA 22230


                                                          August 28, 1997

                                          MEMORANDUM


    TO:            II)Program Director.           I r . w m
    FROM:           Acting Deputy Director
I

    RE:       *     Inspector General                          196 1 10056. "Hiring Practices
                    in the Directorate


                           rrrses my disappointment in your failure to -gnizeethat your subordinate-
                           had a disqualifying conflict-of-interest as to NSF mattes involving his horne
                           failure to take appropriate action to address &at issue.
                                            . .
    '1have reviewed the findings of the inspector ~ e n e d report
                                                            ;      on Investigation NO. 196110056. dated
    April 7,1997. 1also reviewedyour June 5th comments on the [nspcctor~eneral'sReport.
    The 1r-       ~ e h e a iconcluded
                             i         that
    matt#s involving his'home institutio
    The Report also c~ncludedthat you
    to take any steps to prcvqt him fio
    misconduct on your part.

    'bpublic has a right to be confident that the NSF strictly adheres to basic cthisal prhcipla.. Such
    pblic confidence is vitally impomt to the Foundation. Accordingly, I have ordered appropriate NSF
    roffto conduct a onnprehensive review of the a                decisions to determine whether they Were
    .ppmpcktcIy suppotted by the ~ i e wands not adversely affected- b                    impropcr
    pfdcifMitkm.      ,                                                                               J




    I fblly ~ # ~ ) g n ithat
                         z e you have done much good work for h e Foundation during your tenw h a While
        excusing your ethical insensitivity in this case, your past good work I d m e to i m p e 1 7 revere
    discipline duur I might othetwise have done under these circumstances. I trust that such misconduct will
    not be m         e
    If you have any questions about this memorandum, please contact the General Counsel.
                        0         N A ~ o N A SCIENCE
                                              L       FOUNDA
                                       4201 WuoN 8 0 U m D
                                                                   4bH
                                      ARUNOTON, VIRQINIA 22230

                                                             August 28, 1997

                                         MEMORANDUM


    TO:
    FROM:           Acting Deputy    irkt tor
    RE:             Inspector General [nvesti ation Report No. 196110056. "Hiring Practices
                    in the oi-rdtc   for-

    This memorandum reprimands you for your failure to comply with applicable conflict-oMnterest
    standards while serving the NationalScience Foundation under an IntergovernmentalPetsonnel Act
    (IPA) assignment.                                                                          3
                    ,
    t have reviewed the findings of the Inspector General's report on InvestigationNO.196110056. dated
.   Aphl7.1997. 1also reviewed your June S~ comments on the Inspector General's Report.

    The Inspector General concluded
    involving your home institution, the
    Since the Department o f Justice
    inspeaor ~ e n e nreferred
                       l       your arc to i e for eppriatc     administrati~e~~on.

    Your unlawful participation in &-ahxis           represented very serious and i n ~ l c .
    misconduct. The public has a right to be confident that the NSF strictly adhem to basic ethical
    principles. Such public confidence is                     the Foundation. .Accordingly, Ihave
                       NSF staffoutside                           to conduct a comprehensive review of
    the relevan        awatds decisions                             weie appropriately supportedby the
                              affected by your inipkper patticipation.
                                                        .I

    IMa-        o f the mitigatingfactorr cited in the Inspeaor ~eneral'sRepor& Ia h uadershtndthat
    you have done much good work for the Foundation during your tenwe hem. While not excusing your
    ethical misconduct, these factors led me to impose less severe discipline than 1 might othedse have
    done under these circumstances. Itrust that such misconduct will not be repeated.


    a-l,                -   ..,
    t f you have any questions about the contents of this memorandum. please contact the General


    Be advised that a copy of this reprimand will be p i a d in your personnel file. lf you engage in no
    M e r misconduct during the next twelve months, it will removed ftom the file and destroyed.
